NO.
IN THE
UNITED STATES SUPREME COURT
OCTOBER TERM, 2020

IN RE: DANIEL H. JONES,
Petitioner

PETITION FOR AN EXTRAORDINARY WRIT TO THE
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
NO. 18-5601
TO; THE STATE ATTORNEY GENERAL OF KENTUCKY;

NOTIFICA TION AND PROOF OF SERVICE
I, Daniel H. Jones, petitioner, pro se, do swear or declare that on this date
June 1, 2020 ,as required by Supreme Court Rule 29, that I have served the
enclosed Motion For Leave To Proceed in Forma Pauperis and Petition for
Extraordinary Writ - with Appendices - on each party to the above proceeding, or
the party’s counsel, and on every other person required to be served by
depositing an envelope containing the above documents in the United States
mail properly addressed to each of them and with first class postage prepaid, or
by delivery to a third party commercial carrier for delivery within 3 calendar days,
who will be as follows;
Daniel J. Cameron
State Attorney General,
Office of the Attorney General,
700 Capital Ave. Suite 118
Frankfort, Kentucky. 40601
I declare under penalty of perjury that the foregoing is true and correct,
and executed on this 1st day ofJM
\
Daniel H. Jon '^/Petitioner] pro se

CERTIFICATION
This is to certify, that a true and correct copy of the Petitioner’s Notification
and appendices was mailed this 1st say of June. 2020, to Daniel J. Cameron,
Attorney General, locatd at 700 Capital ave, suite 118, Frankfort, Kentucky.
40601...by depositing it in the UiS. Mail, postage prepaid..
Respectfully submitted,
N

2

8, pro se
Turney Centeryfippgfrial Complex
1499 R.W. Moore Memorial Hwy.
Only, Tennessee. 37140-4050

-' Us* > '.*•' Sin-,'

9

CERTIFICATION
\y-"\ W '
This is to certify, that a true and correctCcopy of the In Forma Pauperis
'r

'

>

t

r.t

Motion was mailed this 1st day of June, 2020, to the Clerk of the United States
Supreme Court, located at 1 First Street, N.E.Washington, D.C. 20543, by
depositing it in the U.S. Mail, postage prepaid..
Respectfully submitted,
\

^^mej^:Jgkes7!M43638, pro se
Jurneypefi^rimustrial Complex
1499 RW. Moore Memorial Hwy.
Only, Tennessee. 37140-4050
C:fiie/dhj

!

i

